Audit Report




OIG-11-104
SAFETY AND SOUNDNESS: Material Loss Review of Vantus
Bank
September 20, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents


Audit Report

  Causes of Vantus’s Failure .........................................................................         3

  OTS’s Supervision of Vantus. .....................................................................           5

      OTS Did Not Timely Require Vantus to Comply With CDO/TPS
      Concentration Guidance and Regulatory Limits…………… ..........................                             6

      OTS Implemented PCA as Vantus’s Capital Levels Fell .............................                        8

      OTS’s Internal Failed Bank Review ..........................................................           10

Appendices

  Appendix    1:      Objectives, Scope, and Methodology ....................................                12
  Appendix    2:      Background........................................................................     14
  Appendix    3:      Management Response .......................................................            16
  Appendix    4:      Major Contributors to This Report .........................................            17
  Appendix    5:      Report Distribution ..............................................................     18

Abbreviations

  C&D order           cease and desist order
  CDO                 collateralized debt obligation
  FDIC                Federal Deposit Insurance Corporation
  MOU                 memorandum of understanding
  MRBA                matter requiring board attention
  OIG                 Treasury Office of Inspector General
  OCC                 Office of the Comptroller of the Currency
  OTS                 Office of Thrift Supervision
  OTTI                other-than-temporary impairment
  PCA                 prompt corrective action
  ROE                 report of examination
  TPS                 trust preferred security




          Material Loss Review of Vantus Bank (OIG-11-104)                                                 Page i
        This Page Intentionally Left Blank.




Material Loss Review of Vantus Bank (OIG-11-104)   Page ii
                                                                                        Audit
OIG
The Department of the Treasury
                                                                                        Report
Office of Inspector General




                       September 20, 2011

                       John G. Walsh
                       Acting Comptroller of the Currency

                       This report presents the results of our review of the failure of
                       Vantus Bank (Vantus), of Sioux City, Iowa, and of the Office of
                       Thrift Supervision’s (OTS) supervision of the institution. We are
                       providing the results of this review for your information since the
                       Office of the Comptroller of the Currency (OCC) assumed
                       regulatory responsibilities for federal savings associations on
                       July 21, 2011, pursuant to P.L. 111-203. OTS closed Vantus and
                       appointed the Federal Deposit Insurance Corporation (FDIC) as
                       receiver on September 4, 2009. This review was mandated by
                       section 38(k) of the Federal Deposit Insurance Act because of the
                       magnitude of Vantus’s estimated loss to the Deposit Insurance
                       Fund. 1,2 As of March 31, 2011, FDIC estimated the loss at
                       $182.2 million. FDIC also estimated that Vantus’s failure resulted
                       in a loss of $1.9 million to its Transaction Account Guarantee
                       Program.

                       Our objectives were to determine the causes of Vantus’s failure;
                       assess OTS’s supervision of the thrift, including implementation of
                       the prompt corrective action (PCA) provisions of section 38; and
                       make recommendations for preventing such a loss in the future. To
                       accomplish these objectives, we reviewed the supervisory files and
                       interviewed OTS and FDIC officials. We conducted our fieldwork
                       from November 2009 through February 2010. Appendix 1 contains

1
  At the time of Vantus’s failure, section 38(k) defined a loss as material if it exceeded the greater of
$25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k) defines
a loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for
calendar years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a
provision that the threshold can be raised temporarily to $75 million if certain conditions are met).
2
  Definitions of certain terms, which are underlined where first used in this report, are available in
OIG-11-065, Safety and Soundness: Material Loss Review Glossary (April 11, 2011). That document is
available on the Treasury Office of Inspector General’s (OIG) website at
http://www.treasury.gov/about/organizational-structure/ig/Pages/by-date-2011.aspx.


           Material Loss Review of Vantus Bank (OIG-11-104)                                         Page 1
                       a more detailed description of our review objectives, scope, and
                       methodology. Appendix 2 contains background information on
                       Vantus’s history and OTS’s assessment fees and examination
                       hours.

                       In brief, Vantus failed because the board of directors and
                       management pursued an aggressive growth strategy involving high
                       concentrations in collateralized debt obligations (CDO) 3 backed by
                       trust preferred securities (TPS) 4 and did not adequately manage the
                       risks associated with these assets. The high concentration in risky
                       investments, combined with the economic downturn and
                       subsequent deterioration of the securitization market resulted in
                       significant losses and decreased regulatory capital. Negative press
                       reports on the thrift’s deteriorating financial condition triggered
                       significant customer cash withdrawals, resulting in a liquidity crisis,
                       and ultimately, Vantus’s failure. Regarding supervision, OTS did not
                       take adequate or timely action in response to Vantus’s change in
                       investment strategy. Miscommunication between the OTS’s
                       Midwest Region and headquarters staff contributed to a protracted
                       delay and the failure to enforce investment concentration limits. As
                       Vantus’s capital levels deteriorated, OTS acted timely to impose
                       PCA restrictions but those restrictions were unsuccessful in
                       preventing the thrift’s failure.

                       In light of the transfer of OTS functions to other federal banking
                       agencies on July 21, 2011, we are not making any
                       recommendations as a result of our material loss review of the
                       Vantus failure. We provided OCC with a draft of this report for its
                       review. In a written response, which is included as appendix 3,
                       OCC did not provide specific comments on the report contents.




3
  A CDO is a structured investment security that consists of a securitized pool of debt instruments,
such as trust preferred securities. The cash flows of the underlying collateral are divided into separate
portions, or tranches, each having its own yield, term, and other characteristics designed to appeal to
different investors. Each CDO tranche represents a different type of credit risk. To compensate for their
higher risk, tranches with higher-risk debt (junior or mezzanine tranches) offer higher interest rates to
investors than more senior tranches. Typically, senior notes are rated at a higher investment grade than
mezzanine notes.
4
  This report refers to trust preferred securities using the acronym TPS for consistency with OTS
terminology. While not used in this report, these investments are also commonly referred to as TruPS.


                       Material Loss Review of Vantus Bank (OIG-11-104)                            Page 2
Causes of Vantus’s Failure
                       In 2006, Vantus implemented an aggressive growth strategy to
                       increase commercial lending. When the thrift did not meet its
                       lending goals, Vantus’s board and management revised the growth
                       strategy to include the purchase of CDO/TPSs to generate income.
                       Between the fourth quarter of 2006 and the second quarter of
                       2007, Vantus purchased $65 million in CDO/TPSs. The TPSs that
                       served as collateral for Vantus’s CDO portfolio were primarily
                       issued by banks, savings and loan holding companies, or insurance
                       companies, some of which later failed. The three largest financial
                       institution issuers of securities in Vantus’s CDO/TPS portfolio were
                       IndyMac Bancorp, Inc., the holding company of the failed IndyMac
                       Bank, FSB; Guaranty Bank, which also failed; and Irwin Financial
                       Corporation, the multibank holding company of two failed
                       institutions, Irwin Union Bank and Trust (IUBT) and Irwin Union,
                       FSB. 5 At the time of the purchases in 2006 and 2007, the CDOs
                       were rated investment-grade quality by an independent credit rating
                       agency. 6

                       OTS Thrift Bulletin 73a, Investing in Complex Securities (TB 73a),
                       states that TPSs pose higher risk to investors than traditional
                       corporate debt securities, particularly due to the issuer’s option to
                       defer payments and extend the maturity of the issue. Because of
                       these risks, thrifts that invest in TPSs must, among other things,
                       limit their aggregate investment in TPSs or CDOs backed by TPSs
                       to 15 percent of the institution’s total capital.



5
  We completed material loss reviews of IndyMac Bank, FSB (OIG-09-032, Safety and Soundness:
Material Loss Review of IndyMac Bank, FSB; issued Feb. 26, 2009), Guaranty Bank (OIG-11-066,
Safety and Soundness: Material Loss Review of Guaranty Bank; issued Apr. 29, 2011), and Irwin
Union, FSB (OIG-11-100, Material Loss Review of Irwin Union, FSB; issued Sept. 14, 2011). The
estimated losses to the Deposit Insurance Fund for the three thrifts were $10.7 billion, $1.3 billion, and
$158.5 million, respectively. These documents are available on the OIG website at
http://www.treasury.gov/about/organizational-structure/ig/Pages/by-date-2011.aspx. The Board of
Governors of the Federal Reserve System Office of Inspector General completed a material loss review
of IUBT (Material Loss Review of Irwin Union Bank and Trust; issued April, 2010). That document is
available at http://www.federalreserve.gov/oig/oig_rpt_2011.htm. The estimated loss to the Deposit
Insurance Fund for IUBT was $552.4 million.
6
  Vantus primarily used nationally recognized statistical rating organizations required to be registered
with the Securities and Exchange Commission, such as Moody’s Investment Service, Standard & Poor’s
Rating Services, and Fitch, Inc.


                       Material Loss Review of Vantus Bank (OIG-11-104)                             Page 3
                       Vantus’s board and management did not adhere to the OTS
                       concentration limitation. Vantus previously purchased single issuer
                       TPSs in 2001 and 2002 that had a June 2007 book value of
                       approximately $4 million. By the second quarter of 2007, Vantus’s
                       $69 million combined CDO/TPS portfolio represented approximately
                       135 percent of capital, which far exceeded the 15 percent limit
                       established for such investments.

                       Due to the deterioration in the economy and the securitization
                       market in mid-2007 and 2008, Vantus’s CDO/TPS portfolio
                       declined in market value and the thrift incurred significant
                       unrealized losses. Between June 2007 and June 2009, the market
                       value of the portfolio decreased $56 million, from $69 million to
                       $13 million. These losses and the downgrade of certain CDO/TPS
                       investment ratings from investment-grade to below
                       investment-grade quality triggered an other-than-temporary
                       impairment (OTTI) accounting treatment 7 on a portion of Vantus’s
                       CDO/TPS portfolio and negatively impacted the thrift’s regulatory
                       capital. 8 From June 2007 to June 2009, OTTI charges increased
                       $26.9 million in the aggregate and the thrift’s total risk-based
                       capital level fell from 10.5 percent to 4.0 percent which was
                       considered significantly undercapitalized for PCA purposes.

                       The high concentration in CDO/TPSs, related investment
                       downgrades, and OTTI charges were the primary contributors to
                       the decrease in Vantus’s regulatory capital and weakened financial
                       condition. In August 2009, media coverage indicating the bank
                       might fail led to mass customer withdrawals and a significant
                       decrease in Vantus’s liquidity. From August 17, 2009, to
                       September 4, 2009, Vantus’s liquidity decreased from $57.6
                       million to $14.4 million. OTS closed Vantus and appointed the
                       FDIC as receiver on September 4, 2009.



7
  Financial Accounting Standards No. 115, Accounting for Certain Investments in Debt and Equity
Securities, May 1993.
8
  OTTI charges have a negative impact on regulatory capital, whereas unrealized losses are added back
to equity capital in regulatory capital calculations and therefore have no impact. Additionally, the
investment downgrades on Vantus’s portfolio had a double impact on risk-based capital. It contributed
to the classification of losses as OTTI which negatively impacted the capital component of the ratio and
the downgrades triggered the requirement for the assets to be risk-weighted more heavily, thus
impacting the risk-weighted asset portion of the ratio.


                       Material Loss Review of Vantus Bank (OIG-11-104)                           Page 4
OTS’s Supervision of Vantus
                       OTS performed timely examinations of Vantus in accordance with
                       examination guidelines but did not adequately respond to Vantus’s
                       change in investment strategy. OTS initially failed to recognize that
                       the thrift’s CDO/TPS investment plans did not comply with OTS’s
                       concentration limitation. Once the excess investment concentration
                       was identified, miscommunication between OTS’s Midwest Region
                       and headquarters staff contributed to a protracted delay in
                       enforcing concentration and loans to one borrower (LTOB) 9 limits
                       related to the CDO/TPS portfolio. Had OTS taken more forceful
                       actions in 2007 and 2008 to compel Vantus’s board and
                       management to divest its large concentration of CDO/TPSs, the
                       losses on the thrift’s risky investments would have been reduced
                       giving the thrift a better chance of survival.

                       Table 1 summarizes OTS’s examinations of Vantus from December
                       2003 to September 2009. Generally, matters requiring board
                       attention (MRBA) represent the most significant items reported in a
                       report of examination (ROE) requiring corrective action.




9
  12 CFR 560.40(a)(3), Commercial Paper and Corporate Debt Securities, limits purchases of
commercial paper and corporate debt securities of any one issuer, together with other loans, to the
thrift’s LTOB limit. The LTOB limit, 12 CFR 560.93(c), Banks and Banking, Lending and Investment,
Lending limitations, states that the total loans and extensions of credit by a savings association to one
borrower outstanding at one time and not fully secured, by collateral having a market value at least
equal to the amount of the loan or extension of credit, shall not exceed 15 percent of the unimpaired
capital and unimpaired surplus of the association. Two of Vantus’s CDOs exceeded this limit.


                       Material Loss Review of Vantus Bank (OIG-11-104)                             Page 5
                      Table 1. OTS Examinations of Vantus (December 2003-September 2009)

                                                  Examination Results

             Total                                No. of
Date         assets (in   CAMELS       No. of     corrective
started      millions)    Rating       MRBAs      actions        Enforcement actions
12/8/2003
Full-scope     $640       2/222221       None         None       None
2/28/2005
Full-scope     $570       2/222221         6            6        None
3/27/2006
Full-scope     $586       2/222221         2            2        None
5/29/2007
Full-scope     $646       2/222221         3            3        None
                                                                 Memorandum of Understanding (MOU)
8/18/2008                                                        1/7/2009 (informal enforcement
Full-scope     $583       3/433332         7            7        action)
 9/25/2008
   Limited    $583      3/333332       None       None       None
 3/5/2009
   Limited    $524      3/443332       None       None       None
 5/6/2009                                                    Cease and Desist Order (C&D order)
   Limited    $492      4/543332       None       None       7/31/2009 (formal enforcement action)
 7/7/2009
   Limited    $499      5/553432       None       None       None
 8/24/2009
   Limited    $504      5/553452       None       None       PCA directive 8/31/2009
 9/2/2009
   Limited    $504      5/553452       None       None       None
Source: OTS ROEs, examination history and enforcement actions.

                      OTS Did Not Timely Require Vantus to Comply With CDO/TPS
                      Concentration Guidance and Regulatory Limits

                      In February 2007, in conjunction with OTS’s offsite quarterly
                      monitoring activities, examiners learned of Vantus’s CDO/TPS
                      investment plans. During the full-scope examination that began in
                      May 2007, OTS examiners identified the following issues related to
                      the thrift’s CDO/TPS portfolio.

                      •   Vantus’s portfolio far exceeded (129 percent of capital during
                          the first quarter of 2007) the 15 percent of capital aggregate
                          investment limit set forth in TB 73a.



                      Material Loss Review of Vantus Bank (OIG-11-104)                       Page 6
                        •   Vantus purchased two CDOs in violation of 12 CFR
                            560.40(a)(3) because they exceeded LTOB limits on purchases
                            from individual issuers.

                        As TB 73a states, a thrift’s purchase of complex securities is
                        limited to the aggregate of 15 percent of capital. However, CDOs
                        may be excluded from this restriction if they have no payment
                        deferral features. Generally, CDO issuers have the option to defer
                        any payments beyond their due date, typically for up to 5 years,
                        creating increased risks for holders of these investments.

                        Vantus management disagreed with OTS on the applicability of
                        TB 73a. Although the CDOs in Vantus’s portfolio included a
                        payment deferral option, Vantus management believed that
                        over-collateralization in the CDOs’ structure made payment deferral
                        only a remote possibility. 10 This reliance on over-collateralization
                        proved to be a mistake since 29 percent of all bank issuers of
                        CDO/TPSs defaulted or deferred payments as of March 2010. 11 At
                        the time Vantus’s CDO/TPSs were purchased, the default/deferral
                        rate was not this high. However, these investments were relatively
                        new financial instruments and there was very little, if any,
                        experience on how they would perform over time or in a stressed
                        environment. Based on the belief that the payment deferral
                        possibility was remote, Vantus contended that its CDO/TPS
                        portfolio concentration limit should be subject to thresholds similar
                        to those for either pass-through investments or corporate bonds 12
                        and not the TB 73a limit.

                        In its July 2007 ROE on Vantus, OTS directed the thrift’s board to
                        stop buying CDO/TPSs while the OTS Midwest Region sought
                        guidance from OTS headquarters on the interpretation of TB 73a.
                        OTS also directed the Vantus board to bring the two CDOs that
                        exceeded the LTOB limit into regulatory compliance by

10
   Over-collateralization occurs when the face value of the underlying portfolio is larger than the security
it backs.
11
   Fitch Ratings Structured Credit Special Report (March 31, 2010).
12
   A pass-through investment occurs when a thrift invests in an entity that engages only in activities
that the thrift may conduct directly and the investment meets the requirements of 12 C.F.R. §560.32.
Commercial debt securities are governed by 12 C.F.R. §560.40 pursuant to Home Owners’ Loan Act
section 5(c)(2)(D). An entity’s total investment in pass-through investments and corporate bonds is
limited to 50 percent of capital and 35 percent of its total assets, respectively.


                        Material Loss Review of Vantus Bank (OIG-11-104)                             Page 7
September 30, 2007. Due to miscommunication between the
Midwest Region and headquarters staff, it was not until February
2008 (7 months later) that OTS finally informed Vantus that the
total investment limit set forth in TB 73a applied to its CDO/TPS
portfolio and directed Vantus to divest the excessive holdings as
soon as practical given the current market conditions. A regional
OTS capital market specialist told us that, based on market data,
had Vantus divested its excess CDO/TPS in July 2007, shortly
after OTS recognized the applicability of TB 73a, the resulting loss
would have been limited to less than $2 million. With that, Vantus
would have maintained its well-capitalized status. By 2008, when
OTS finally acted to enforce the aggregate concentration limit,
there was no longer a market for CDO/TPSs. OTS granted repeated
extensions to Vantus related to both the LTOB and aggregate
concentration limit directives. Ultimately, Vantus never divested
the investments.

Given the timing of the collapse of the securitization market that
began in mid-2007, we believe that more timely and forceful action
on the part of OTS to address Vantus’s CDO/TPS concentration
would have given the thrift a better chance of survival and may
have prevented a loss to the Deposit Insurance Fund.

OTS Implemented PCA as Vantus’s Capital Levels Fell

The purpose of PCA is to resolve problems of insured depository
institutions with the least possible long-term loss to the Deposit
Insurance Fund. PCA requires federal banking agencies to take certain
actions when an institution’s capital drops to certain levels. PCA also
gives regulators flexibility based on criteria other than capital levels to
help reduce deposit insurance losses caused by unsafe and unsound
practices.

Although we determined that OTS should have acted sooner and
more forcefully to address the unsafe and unsound practices with
Vantus, we concluded that OTS appropriately implemented PCA as
Vantus’s condition deteriorated.




Material Loss Review of Vantus Bank (OIG-11-104)                   Page 8
The following key events and OTS’s response occurred in 2008 and
2009.

•   In November 2008, Vantus formally notified OTS that its PCA
    capital status fell from well-capitalized to adequately capitalized
    based on an OTTI write-down on the CDO/TPS portfolio and a
    restatement of its June 30, 2008, financial statements. On
    January 7, 2009, based on the full-scope examination that began
    in August 2008, OTS entered into an MOU with Vantus to address
    unsafe and unsound practices and conditions, such as a precarious
    capital position, deteriorating asset quality, and increased liquidity
    risk. Among other things, the MOU required the thrift to achieve a
    risk-based capital ratio of 10 percent by March 31, 2009.

•   Vantus’s financial statements for the quarter ended March 31,
    2009, included additional OTTI write-downs on the CDO/TPS
    portfolio and Vantus’s PCA capitalization status fell to
    significantly undercapitalized. On May 8, 2009, OTS directed
    Vantus to submit a capital restoration plan by June 15, 2009,
    in accordance with PCA requirements.

•   OTS issued a C&D order dated July 31, 2009, replacing the
    MOU dated January 7, 2009. Among other things, the C&D
    order reiterated the MOU and required the thrift to submit a
    capital restoration plan by August 31, 2009. The C&D order
    also required Vantus to achieve and maintain a Tier 1 core
    capital ratio of 8 percent and a total risk-based capital ratio of
    12 percent, by December 31, 2009.

•   On August 13, 2009, OTS rejected Vantus’s capital restoration
    plan, stating that it was based on unrealistic assumptions.

•   OTS issued a PCA directive dated August 31, 2009, that
    required Vantus to be recapitalized by September 30, 2009.
    The PCA notice also contained other relevant PCA restrictions.

•   Deeming the thrift in unsafe and unsound condition, OTS closed
    Vantus and appointed FDIC as receiver on September 4, 2009.




Material Loss Review of Vantus Bank (OIG-11-104)                   Page 9
OTS’s Internal Failed Bank Review

In accordance with its policy, OTS completed an internal failed
bank review of Vantus and concluded that the thrift’s failure
resulted primarily from the deterioration in its CDO/TPS portfolio
and the resulting impact on earnings, capital, and liquidity.
According to the internal review, the OTS Midwest Region
identified Vantus’s CDO/TPS investment concentration; however,
the supervisory staff did not make an adequate assessment of
whether the concentrations represented an unsafe or unsound
condition nor did they perform an analysis of the impact on capital
or earnings. In addition, the review found that the OTS Midwest
Region’s decision to require compliance with the concentration
guidance “as soon as practical” based on market conditions
eliminated pressure for the thrift to divest the risky investments.

The internal OTS review also found that the increase in the level of
the thrift’s nonperforming loans and classified assets contributed to
Vantus’s failure, but was not sufficient to have caused the failure.
According to the internal review, OTS examinations identified
significant concentrations of high risk loans, such as construction
and commercial real estate loans, but no specific action was taken
to require a reduction in the concentration.

The internal review made recommendations for OTS to (1) require
Regional Directors to approve staff decisions that vary from
guidance outlined in a current Thrift Bulletin and (2) clearly
communicate to the industry and examination staff the expectation
of OTS that each institution establish a concentration limit as a
percent of core capital plus the allowance for loan and lease losses
for the institution’s aggregate high risk loan position. The internal
review noted the recommendation related to loan concentrations
had already been addressed by OTS through its issuance of CEO
Letter 311 dated July 9, 2009. While these were prudent actions,
we are not making any recommendations as a result of our material
loss review of the Vantus failure because OTS functions
transferred to other federal banking agencies on July 21, 2011.




Material Loss Review of Vantus Bank (OIG-11-104)              Page 10
                                  * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-5904 or Debbie Harker, Audit Manager,
at (202) 927-5762. Major contributors to this report are listed in
appendix 4.


/s/
Kieu T. Rubb
Audit Director




Material Loss Review of Vantus Bank (OIG-11-104)            Page 11
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of Vantus Bank (Vantus),
                        of Sioux City, Iowa, in response to our mandate under section
                        38(k) of the Federal Deposit Insurance Act. 13 This section provides
                        that if the Deposit Insurance Fund incurs a material loss with
                        respect to an insured depository institution, the inspector general
                        for the appropriate federal banking agency is to prepare a report to
                        the agency that

                        •    ascertains why the institution’s problems resulted in a material
                             loss to the insurance fund;
                        •    reviews the agency’s supervision of the institution, including its
                             implementation of the prompt corrective action (PCA) provisions
                             of section 38; and
                        •    makes recommendations for preventing any such loss in the
                             future.

                        We initiated a material loss review of Vantus based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC),
                        which on the date of failure (September 4, 2009) was $168
                        million. As of March 31, 2011, FDIC estimated that the loss to the
                        Deposit Insurance Fund from Vantus’s failure would be
                        $182.2 million.

                        Our objectives were to determine the causes of Vantus’s failure
                        and assess the Office of Thrift Supervision’s (OTS) supervision of
                        the thrift. To accomplish our review, we conducted fieldwork at
                        OTS’s headquarters in Washington, D.C.; OTS’s Central Region
                        office in Chicago, Illinois; OTS’s Western Region office in Irving,
                        Texas; and Vantus’s former headquarters in Sioux City, Iowa. We
                        interviewed OTS headquarters, region, and field personnel. We also
                        interviewed officials of FDIC’s Division of Supervision and
                        Consumer Protection, and personnel from FDIC’s Division of
                        Resolutions and Receiverships. We conducted our fieldwork from
                        November 2009 through February 2010.

                        To assess the adequacy of OTS’s supervision of Vantus, we
                        performed the following work:




13
     12 U.S.C. § 1831o(k).


                        Material Loss Review of Vantus Bank (OIG-11-104)                Page 12
                        Appendix 1
                        Objectives, Scope, and Methodology




                        •   We reviewed OTS’s supervisory files and records for Vantus
                            from 2003 through 2009. We analyzed examination reports,
                            supporting workpapers, and related supervisory and
                            enforcement correspondence. We performed these analyses to
                            gain an understanding of the problems identified, the approach
                            and methodology OTS used to assess the thrift’s condition, and
                            the regulatory action OTS used to compel thrift management to
                            address deficient conditions.

                        •   We interviewed and discussed various aspects of the
                            supervision of Vantus with OTS officials and examiners to
                            obtain their perspectives on the thrift’s condition and the scope
                            of the examinations.

                        •   We interviewed FDIC officials who were responsible for
                            monitoring Vantus for federal deposit insurance purposes.

                        •   We interviewed personnel from FDIC’s Division of Resolutions
                            and Receiverships who were involved in the receivership
                            process, which was conducted before and after Vantus’s
                            closure and appointment of a receiver.

                        •   We assessed OTS’s actions based on its internal guidance and
                            the requirements of the Federal Deposit Insurance Act. 14

                        We conducted this performance audit in accordance with generally
                        accepted government auditing standards. Those standards require
                        that we plan and perform the audit to obtain sufficient, appropriate
                        evidence to provide a reasonable basis for our findings and
                        conclusions based on our audit objectives. We believe that the
                        evidence obtained provides a reasonable basis for our findings and
                        conclusions based on our audit objectives.




14
     12 U.S.C. § 1811 et seq.


                        Material Loss Review of Vantus Bank (OIG-11-104)                Page 13
Appendix 2
Background




Vantus Bank History

Vantus Bank (Vantus) was established in 1923 and was a federally
chartered stock savings bank wholly owned by First Federal
Bankshares, Inc., a unitary non-diversified thrift holding company.
Vantus’s main office was in Sioux City, Iowa, and at the time of its
closure the thrift served its customers through a branch network of
14 offices in northwest and central Iowa, and northeast Nebraska.

OTS Assessments Paid by Vantus

OTS funded its operations in part through semiannual assessments
on thrifts. OTS determined each institution’s assessment by adding
together three components reflecting the size, condition, and
complexity of an institution. OTS computed the size component by
multiplying an institution’s total assets, as reported on its thrift
financial report, by the applicable assessment rate. The condition
component was a percentage of the size component and was
imposed on institutions that had a 3, 4, or 5 CAMELS composite
rating. OTS imposed a complexity component if (1) a thrift
administered more than $1 billion in trust assets, (2) the
outstanding balance of assets fully or partially covered by recourse
obligations or direct credit substitutes exceeded $1 billion, or
(3) the thrift serviced over $1 billion of loans for others. OTS
calculated the complexity component by multiplying set rates by
the amounts by which an association exceeded each threshold.
Table 2 shows the assessments that Vantus paid to OTS from
2003 through 2009.




Material Loss Review of Vantus Bank (OIG-11-104)              Page 14
    Appendix 2
    Background




    Table 2: Assessments Paid by Vantus to OTS, 2003–2009
    Billing Period             Exam Rating       Amount Paid
    1/1/2003-6/30/2003               2                $66,107
    7/1/2003-12/31/2003              2                 65,707
    1/1/2004-6/30/2004               2                 67,678
    7/1/2004-12/31/2004              2                 66,859
    1/1/2005–6/30/2005               2                 62,689
    7/1/2005–12/31/2005              2                 63,464
    1/1/2006–6/30/2006               2                 64,964
    7/1/2006–12/31/2006              2                 67,018
    1/1/2007–6/30/2007               2                 68,655
    7/1/2007–12/31/2007              2                 73,718
    1/1/2008–6/30/2008               2                 74,127
    7/1/2008–12/31/2008              2                 70,848
    1/1/2009–6/30/2009               3                101,186
    7/1/2009–12/31/2009              4                124,662
    Source: OTS Electronic Continuing Examination Folder system.

    Number of OTS Staff Hours Spent Examining Vantus

    Table 3 shows the number of OTS staff hours spent examining
    Vantus from 2003 to 2009.
 
    Table 3: Number of OTS Hours Spent Examining Vantus, 2003-2009
                                                         Number of
     Examination Start Date      Exam Type       Examination Hours
           12/8/2003                  Full                        923
           2/28/2005                  Full                        912
           3/27/2006                  Full                        813
           5/29/2007                  Full                        761
           8/18/2008                  Full                      1,069
            3/5/2009                Limited                         3
            7/7/2009                Limited                       110
           8/24/2009                Limited                        88
    Source: OTS Electronic Continuing Examination Folder system.




    Material Loss Review of Vantus Bank (OIG-11-104)                    Page 15
Appendix 3
Management Response




Material Loss Review of Vantus Bank (OIG-11-104)   Page 16
Appendix 4
Major Contributors to This Report




Deborah L. Harker, Audit Manager
Katherine E. Johnson, Auditor-in-Charge
Yvens A. Dalmeida, Auditor
Regina A. Morrison, Auditor
Justin D. Summers, Auditor
Timothy F. Cargill, Referencer




Material Loss Review of Vantus Bank (OIG-11-104)   Page 17
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

U.S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of Vantus Bank (OIG-11-104)          Page 18
